IN THE SUPREME COURT OF THE UNITED STATES
No. 20-783
SUNCOR ENERGY (U.S.A.) INC., ET AL., PETITIONERS
V.

BOARD OF COUNTY COMMISSIONERS OF BOULDER COUNTY, ET AL.
CERTIFICATE OF SERVICE
I, Marco B. Simons, counsel of record for Respondents and a member of the
Bar of this Court, certify that, on March 5, 2021, one copy of the Brief in Opposition
in the above-captioned case was sent, by first-class mail, postage prepaid, to the
following counsel:
HUGH QUAN GOTTSCHALK
EVAN B. STEPHENSON
WHEELER TRIGG O'DONNELL LLP
370 Seventeenth Street, Suite 4500
Denver, CO 80202
Counsel for Petitioners
Suncor Energy (U.S.A.) Inc. ,
Suncor Energy Sales Inc.,
and Suncor Energy Inc.
COLIN G. HARRIS
FAEGRE BAKER DANIELS LLP
1470 Walnut Street, Suite 300
Boulder, CO 80302
Counsel for Petitioner
Exxon Mobil Corporation

KANNON K. SHANMUGAM
WILLIAM T. MARKS
TANYA S. MANNO
E. GARRETT WEST
PAUL, WEISS, RIFKIND,
WHARTON & GARRISON LLP
2001 K Street, N.W.
Washington, DC 20006
THEODORE V. WELLS, JR.
DANIEL J. TOAL
ADAM P. SAVITT
PAUL, WEISS, RIFKIND ,
WHARTON & GARRISON LLP
1285 Avenue of the Americas
New York, NY 10019
Counsel for Petitioner
Exxon Mobil Corporation

I further certify that all parties required to be served have~

Marco B. Simons

- ~- -

